U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Devan Pierson v. United States of America, No. 19-566
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2019. The government's response is now due, after one extension, on December 30, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 30, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-05 66
PIERSON, DEVAN
USA

ZACHARY A. CIULLO
KIRKLAND & ELLIS LLP
300 N. LASALLE STREET
CHICAGO, IL 60654
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
ERIN.MURPHY@KIRKLAND.COM

